Office of
INSPECTOR GENERAL

 Audit Re   on




 Audit of Property Management



 Report No. IG-D1-92




                                November 1991
                                   Date Issued
     INSPECfOR GENERAL




      UNITED STATES INTERNATIONAL TRADE COMMISSION

                         WASHINGTON, D.C. 20436

November 27, 1991




The Budget and Accounting Procedures Act of 1950 states that
agencies must establish and maintain systems of accounting and
reporting that provide for effective control over property and
other assets. An audit of the Commission's property management was
scheduled in accordance with Federal regulations followed by the
Commission that detailed evaluations of agency financial systems
shall be conducted on a cyclical basis.    The objectives of this
audit were to evaluate property management policy and procedures
to identify any areas of non-compliance, improvements to internal
controls, or increased efficiency.

The etficient operation of the property management system is a
j oint responsibility of the Director, Office of Management Services
 (OMS), who has been designated as the Commission's Property
Management Officer (PMO) ,   and the office directors who are the
Accountable Officers (AOs). The PMO is responsible for providing
overall supervision and technical direction of the property
management system. The AOs or their designees are responsible for
the recordkeeping and reporting on all government-owned personal
property in their accountable areas and carrying out the
Commission's property management policy and procedures.          The
property management policy and procedures set forth in USITC
Directive 3550 generally provide adequate guidance. However, the
implementation of the policy and procedures was lacking to such an
extent that the auditors could not conclude that information
regarding all items in the property management system is
appropriately recorded and that all property is accounted for.

This audit was conducted by Cotton & Company in accordance with the
Government Auditing Standards issued by the Comptroller General of
the United States.   The results of their review are presented as
an attachment to this report.    The auditors found two conditions
in the system of internal accounting control over property
management that they considered to be material weaknesses in
accordance with AICPA standards.
The findings of material weaknesses were:

     1.   A large amount of property is recorded on the master
          property list with location codes that do not represent
          actual physical locations.   OMS assigns these location
          codes when the PMO and AO disagree about the location of
          an item of property. The accountability trail for these
          items has been broken and their exact locations are
          unknown.

     2.   Property pass procedures are not always followed. Some
          property passes did not identify to whom the pass was
          issued and others were not signed by authorized
          individuals.   Furthermore, the security guards at the
          main entrance to the Commission do not always inspect
          packages or request to see property passes.

In addition to the above weaknesses, the auditors identified
numerous other conditions in the inventory process (pages 6 - 7),
property transfer and disposal (pages 7 - 9), and general property
management (pages 9 - 11), that require management's attention.

We recommend that the Director, Office of Administration implement
the report recommendations, giving priority to the actions needed
to correct the material weaknesses identified by Cotton & Company.
Reconunendations regarding the findings of material internal control
weaknesses, presented on page 11 of the report, are:

          The PMO should verify the existence and exact location
          of all property on the master property list, update the
          list, and ensure accountability is established. The PMO
          should ensure that AOs are knowledgeable of procedures
          and should establish a schedule for timely entry of all
          property-related   transactions    into   the  property
          management system.

          The Chief, Operations Branch, OMS should ensure that all
          personnel authorized to sign property passes are aware
          of how to properly complete the pass and that guards are
          following established procedures.

Recommendations regarding the matters described in the Other
Conditions section are presented on pages 14 - 16 of the report.

Since the draft report was issued, the PMO has made a considerable
effort to conduct an inventory and improve the property management
system. These efforts have further evidenced the need to develop
clear policies on the classification and control of property
particularly in regard to computer equipment, supplies, low value



                                 2
items and personal charges. The effort required to locate all of
the items on the master property list may exceed the value, in
which case a decision will have to be made on which items will be
deleted even though their locations were not verified.

Greater recognition and acceptance of responsibility on the part
of the AOs is going to be mandatory before the property system will
operate effectively and efficiently. The PMO stated that the lists
of items without specific locations resulted because items were
moved and no records maintained of the transfers. Apparently this
practice continues as five items verified by the PMO could not be
found less than 30 days later when we sampled ten items from the
master property list during our follow up to the audit response.
We believe this problem has become so severe because AOs have been
allowed to delete missing property from their lists without
locating the item. Once an inventory is completed, the AOs should
assume full responsibility and accountability for property assigned
to them.

Although the property management system has serious internal
control weaknesses, we do not believe they constitute a material
weakness as defined by the Federal Managers' Financial Integrity
Act. This opinion is consistent with the auditors' conclusion that
the entire property management system was not inadequate and the
clean opinion in the auditors' report on the fiscal years 1989 and
1990 financial statements.

The Director of Administration generally agreed with the findings
and recommendations.  On pages 12 - 14 and 16 of the attachment,
we summarize the Director's comments on the findings and provide
our responses.   The Director's comments are presented in their
entirety as an appendix to the report.


                                ~~/O
                                 AltenhO~
                              Jane E.
                              Inspector General




                                 3
                      TABLE OF CONTENTS



Attachment   Report on the Internal Control Review of the USITC' s
             Property Management System

Appendix     Memorandum from Director, Office of Administration,
             dated October 16, 1991, on Draft Report
                                                                 Attachment




                                REPORT ON THE

                        INTERNAL CONTROL REVIEW OF THE

                UNITED STATES INTERNATIONAL TRADE COMMISSION'S
                          PROPERTY MANAGEMENT SYSTEM




Prepared by:

Cotton & Company
Certified Public Accountants
Alexandria, Virginia
                                 corrON Ptmuc
                                        & COMPANY
                                                      CERTIFIED          ACCOlJNTANrS

                      100 SournRoYAL STREET· A1.E:xANnRIA, VIRCINIA 22314· (703)836-6701 • TELECOPIER: (703)836-0941

DAVID L Corroe, CPA                   BmmA N.!luRzeso. CPA                    RaoT L Fu:sHER. CPA                  CAnlERJIlE L NcxEtA. CPA
Ctwtus HAYWARD, CPA                   Mx::ttAa. W GIWlSPIE, CPA               1<mN P. McFADIlEJI/, CPA             I:u.BII P. REm. CPA




                                                                  June 24, 1991



         Ms. Jane E. Altenhofen
         Inspector General
         United States International Trade Commission
         500 E Street, SW
         Washington, DC 20436

         Dear Ms. Altenhofen:

              We reviewed internal controls over the United States International Trade
         Commission's (ITC) property management system. This review was limited to
         controls pertaining to:

                 •       Receipt of property.

                •        Control and safeguarding of property.

                •        Physical .inventory of property.

                •        Reconciliation to and adjustment of property records.

                •        Retirement and disposal of property.

                •        Compliance with applicable laws, regulations and rules.

             OUr review was performed in accordance with guidelines and standards
        established by the ·American Institute of Certified Public Accountants, Office
        of Management and Bu4get, and the U.S. General Accounting Office. OUr review
        was more limited than would be necessary to express an opinion on lTC's system
        of internal control taken as a whole.

             lTC's management is responsible for establishing and maintaining a system
        of internal accounting control. In fulfilling this responsibility, estimates
        and judgements by management are required to assess the expected benefits and
        related costs of control procedures. The objectives of a system of internal
        control are to provide management with reasonable, but not absolute, assurance
        that assets are safeguarded against loss from uriauthorized use or disposition,
        and that transactions and program management activities are executed in
        accordance with management's authorization and, where appropriate, recorded
        properly to permit the preparation of financial reports in accordance with
        generally accepted accounting principles and agency policies and procedures.
Ms. Jane E. Altenhofen
Page 2


      Because of inherent limitations in any system of internal accounting
control, errors or irregularities may nevertheless occur and not be detected.
Also, projection of any evaluation of the system to future periods is subject
to the risk that procedures may become inadequate as a result of changes in
conditions, or that the degree of compliance with the procedures may deterio-
rate.

     The specific control objectives associated with the ITC property manage-
ment system are as follows:

     •    Property management policies and procedures should be in
          accordance with existing laws, regulations, and rules.

     •    Property management policies and procedures are established and
          maintained to provide for appropriate accounting and control of
          property.

     •    Property records should be accurately and promptly maintained
          and periodically substantiated.

     •    Physical security safeguards over property should be adequately
          maintained.

     Our review, made for the limited purposes described in the first para-
graph of this report, would not necessarily disclose all material weaknesses
in lTC's internal control system. Accordingly, we do not express an opinion
on lTC's internal control system taken as a whole. Our review, however,
disclosed two conditions that, in our opinion, result in more than a relative-
ly low risk that errors or irregularities in amounts that would be material in
relation to property management system data may occur and not be detected
within a timely period by employees in the normal course of performing their
assigned functions. These conditions are described in the Findings section of
the accompanying report.

     Based on our review of the specific property management system control
objectives listed above, the system of internal accounting control in effect
at June 24, 1991, was sufficient to meet those objectives, except for the
effects of the conditions described above. We also identified certain other
matters that we think warrant management's attention. These are described in
the Other Conditions section of the report.

     Generally accepted Government auditing standards require tests of the
organization's compliance with applicable laws and regulations. Compliance
with laws and regulations applicable to the property management process is the
responsibility of lTC's management. In connection with the review referred to
above, we performed tests of compliance with certain provisions of the laws
and regulations identified in the Methodology section of the accompanying
report.
Ms. Jane E. Altenhofen
Page 3


     Our test results indicate that, for the items tested, ITC complied in all
material respects with the provisions of applicable laws and regulations.
Nothing came to our attention that caused us to believe that ITC did not
comply with such provisions with respect to the items not tested.

     We conducted fieldwork in Washington, DC, from May 29 to June 24, 1991.

     We discussed the results of our review with the Director, Office of
Administration; the Director, Office of Management Services; the Director,
Office of Finance and Budget; the Director, Office of Information Resources
Management; and other headquarters personnel responsible for the overall
management of the processes we reviewed. Commission comments provided at the
meeting to discuss the working draft report have been incorporated into this
draft, as appropriate.

     The accompanying report is intended solely for lTC's information and use
and should not be used for any other purpose.

                                    Very truly yours,

                                    COTTON & COMPANY



                              By:   .~r,H~~
                                    Kevin P. McFadden, CPA


Enclosure
                             CONTENTS



1   INTRODUCTION                                   1
    Background                                     1
    Objectives                                     2
    Scope                                          2
    Methodology                                    3

2   REVIEW RESULTS                                 4
    Findings                                       4
         Inventory Process                         4
         Property Pass System                      S
    Other Conditions                               6
         Inventory Process                         6
         Property Transfer and Disposal Process    7
         General Property Management               9
    Conclusions                                   11
         Inventory Process                        11
         Property Transfer and Disposal Process   11
         General Property Management              11
    Recommendations Regarding Findings            11
         Inventory Process                        11
         Property Pass System                     11
    Commission Comments                           12
         Inventory Process                        12
    Recommendations Regarding Other Conditions    14
         Inventory Process                        14
         Property Transfer and Disposal Process   lS
         General Property Management              is
    Commission Comments                           16
         Property Transfer and Disposal Process   16
         General Property Management              16

    Appendix
         Commission's Response
                 REPORT ON THE INTERNAL CONTROL REVIEW OF THE
                 UNITED STATES INTERNATIONAL TRADE COMHISSION
                          PROPERTY MANAGEMENT SYSTEM

                               PART 1: INTRODUCTION

     In this part, we discuss the review background, objectives, scope, and
methodology.

BACKGROUND

     The United States International Trade Commission (ITC) is an independent
Federal agency with six commissioners, a staff of about 500, and Fiscal Years
(FY) 1990 and 1991 budgets of $38,477,000 and $40,299,000, respectively.

     The Budget and Accounting Procedures Act of 1950 states that agencies
must establish and maintain systems of accounting and reporting that provide
for effective control over property and other assets. Title 2 of the General
Accounting Office's (GAO) Policy and Procedures Hanual for Guidance of Federal
Agencies (GAO Title 2, Accounting) requires, among other things, that agency
property records must:

     •    Capture all transactions affecting the agency's investment in
          property.

     •    Control physical quantities of Government-owned property and
          their locations.

     •    Enable periodic independent verification of accounting record
          accuracy through periodic physical counts.

     •    Identify property, plant, and equipment that was capitalized
          and reported in financial statements and property, plant, and
          equipment that was not, but was charged as an expense in prior
          periods and included in the records for control purposes.

     •    Be integrated with   o~   reconciled with the accounting system.

     •    Reflect'the removal of nondepreciated property, plant, and
          equipment from the property account when retired and remove an
          equal amount from the invested capital account.

     ITC maintains an automated personal property management system that
stores identifying information on each item of owned or leased property valued
at greater than $300. Most property is located in the building at 500 E
Street, SW, Washington, DC, but some excess property is stored in two build-
ings at the Navy Yard in Southeast Washington, DC. Furniture, equipment, and
leasehold improvements were valued at $9.1 million on the FY 1990 financial
statements.




                                          1
     To expedite and control physical inventories, ITC uses barcodes. Each
piece of furniture and equipment valued over $300 is tagged with a unique bar-
code label that identifies the item as ITC property.

OBJECTIVES

     We reviewed internal controls over lTC's property management system to
identify: (1) noncompliance with applicable laws, regulations, and IIC
directives; (2) improvements needed in internal controls; and (3) areas that
would benefit from increased efficiency.

     The specific objectives for this engagement were to:

        •    Evaluate property management policies and procedures and
             compliance with laws, regulations, and policy.

     •      Determine the thoroughness of the inventory process including
            reconciliation with the accounting records, as applicable.

     •      Determine the accuracy of a sample of items contained in the
            inventory.

     •      Evaluate physical security safeguards.

     •      Review the process for retiring and disposing of assets.

     •      Evaluate the adequacy of actions taken on prior report find-
            ings.



     We conducted our review at IIC headquarters in Washington, DC, between
May 29 and June 24, 1991. The review focused on the property management
system in place as of June 24, 1991, and included tests of transactions
occurring during FYs 1990 and 1991.

     We met with the Property Management Officer (PMO) and representatives of
the Office of Management Services (OMS) regarding:

     •      Duties and responsibilities of the PMO and accountable officers
            (ADs).

    •       Receipt and distribution of property.

    •       Records of property.

    •       Physical inventory of property and reconciliation to property
            records.

    •       Investigation and accountability of missing property.

    •       Transfer and disposal of excess property.

                                        2
     •    Physical security.

     We interviewed selected ADs, alternates, and custodians to determine if
they are properly carrying out their responsibilities for safeguarding,
inventorying, transferring, and disposing of property.

     We also met with building security personnel to determine their under-
standing of their responsibilities for ensuring that property removed from the
premises is done so only with proper authorization.


METHODOLOGY

     We gathered data for our review using structured interviews; physical
inspection of property items; an internal control questionnaire; and sample
tests and analyses of property inventory records, receiving reports, property
passes, property disposal and transfer documents, and other documents and
reports identified as relevant to the property management system. We also
toured off-site property storage locations.

     The major guidelines and operating regulations we used to determine the
adequacy of internal controls and procedures and to assess the degree of lTC's
compliance with the relevant requirements were:

     •    Regulation 41 CFR 101, Federal Property Management Regulation.

     •    GAO's Standards for Internal Controls in the Federal Government
          (1983).

     •    ITC Policy Directive 3550, Property Management: Policies and
          Procedures.

     •    ITC Administrative Services Procedures Manual.

     •    GAO's Policy and Procedures Manual for Guidance of Federal
          Agencies (GAO Title 2, Accounting).

     This review was conducted in accordance with the Comptroller General's
Government Auditing Standards (1988 revision).




                                      3
                    REPORT ON THE INTERNAL CONTROL REVIEW OF THE
                    UNITED STATES INTERNATIONAL TRADE COHKISSION
                             PROPERTY MANAGEMENT SYSTEM

                               PART 2: REVIEW RESULTS


FINDINGS

     We noted certain conditions in the system of internal accounting control
over property management that we consider material weaknesses. A weakness in
internal accounting control is a condition in which the specific control
procedure, or the degree of compliance with the procedure, is not sufficient
to achieve a specific control objective; that is, errors or irregularities may
occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. A weakness is material if the
condition results in more than relatively low risk of such errors or irregu-
larities in amounts that would be material in relation to property management
data. These two material weaknesses are discussed in the following sections.

Inventory Process

     The objectives of an inventory process and the condition we noted are
discussed below.

     Objectives: The objectives of the inventory process are to ensure that
the location and condition of all property are known, that property management
records are accurate, and that accountability for each item is established.
The condition described here could result in inaccuracies in property manage-
ment system data or the loss or misappropriation of property.

     Condition: A large amount of property is recorded on the master property
list (MPL) with a location code of either "222" or "store". These designa-
tions do not represent actual physical locations. Rather, OMS assigns one of
these locations when the PMO and AOs disagree about the location of an item of
property. These situations occur when property transfers take place and the
required Forms 110, Property Action Form, used to record the transfer of
property, are not completed.

     As a result, the "accountability trail" for these items is broken, and
their exact locations are unknown.   Some of the equipment on the MPL has been
so listed for over 2 years. A Form 110 is not always prepared when property
transfers occur, and those that are prepared are not always entered into the
property management system in a timely manner.

     ITC Directive 3550, Section 12, requires AOs to complete an ITC Form 110
whenever the office has property for which it no longer has use. In addition,
the ITC Administ:rat:ive Services Procedures Handbook states that: "Each time an
item of personal property is moved from one office to another an ITC Form 110-
Property Action Form must be completed and forwarded to the Administrative
Services Division."


                                         4
     The "222" items represent 42 computer pages of equipment such as Wang ADP
equipment, monitors, keyboards, CPUs, and other office equipment. If the Wang
equipment, keyboards, an~ monitors are excluded from the property management
system because of disposal or a change in property management criteria, the
list would still contain numerous high-value ADP-type items.

     We determined that, in addition to Wang equipment, the property manage-
ment system includes the following:

     Item and Number                                 Maximum Va1uelUnit
     106 personal computers (PCs)                          $4,917
     11 laptop PCs                                          2,839
     13 laser printers                                      5,893
     30 matrix printers                                     8,579

     We also identified 13 "ADP miscellaneous items" with a maximum value of
$107,885.

     Further, the "store" list totals over $1.1 million and contains such
items as systems furniture, tables, chairs, typewriters, and audio-visual
equipment.

     Because of the use of location codes "222" and "store", we had difficulty
locating 17 of the 50 items we selected from the MPL for testing. It was only
with a significant effort and the assistance of OMS that we were able to
locate these items. Adequate control and accountability cannot be exercised
over this equipment if it cannot be readily located.

     GAO's St:andards for Int:ernal Cont:rols in t:he Federal Government: and GAO
Title 2 require documentation of transactions and other significant events be
complete and accurate, facilitate tracing the transaction, and permit indepen-
dent physical verification. ADs should not be permitted to transfer property
(and the related accountability) without completing a Form 110. ADs should be
held accountable, as the last custodian of record, for all transfers made
without completing the required Form 110.

     As a result of the weaknesses in the inventory process and the Form 110
system, which impacts the process, the property management system is not
totally accurate and "is not always effective in locating property. This was
also a finding in a February 1987 GAO report.

Property Pass System

     The objective of a property pass system and the condition we noted are
discussed below.

     Objective: The objective of the property pass system is to authorize
removal of controlled Government property from the ITC building or removal of
privately-owned property used for official business in the ITC building. The
condition described below could result in the loss or misappropriation of ITC
property.


                                       5
     Condition: Property pass (Optional Form 7) procedures are not always
followed. We reviewed 73 property passes issued during April and May 1991.
Of these, 44 (all issued by one office) did not identify to whom the pass was
issued and 3 (from other offices) were not signed by authorized individuals.
Furthermore, the security guards at the main entrance to ITC headquarters do
not always inspect packages or request to see property passes.

     Failure to follow property pass procedures could result in the removal of
ITC property by unauthorized individuals, resulting in property misappropria-
tion. Persons removing property from the ITC headquarters are required to
have a valid property pass before removing Government-owned or personal
property from the building (ITC Security Guard--Guard Post Assignment Record).

     The ITC Administrative Services Procedures Handbook, page 26, designates
personnel authorized to sign property passes. A security shift supervisor
stated that guards are required to inspect passes to ensure the (1) serial
number on the property agrees with that on the pass, (2) name on the pass
agrees with identification presented by the individual and, (3) signature on
the pass matches an authorized signature. These procedures are not always
followed.

     Management personnel stated that the 44 property passes referred to above
were for witness-owned property. They do not view this weakness as material.
It is our view, however, that the proper safeguards are not being followed,
regardless of the ownership of the property, and the situation could result in
the misappropriation of ITC property.

OTHER CONDITIONS

     We noted certain other conditions that represent weaknesses in lTC's
system of internal accounting control that we think warrant management's
attention. These are discussed in the following sections.

Inventory Process

     Two inventory conditions that represent weaknesses in the inventory
process system are described below.

1.   The PMO does not retain a final list of the property for which each AO is
     accountable, although he does retain interim listings. Following the
     1991 physical inventory, the PMO provided the AO a listing of property.
     After the AO inventoried the property, the AO was to be accountable for
     the property. The list was transmitted by a cover letter that was to be
     signed by the AO and returned to the PMO. The AO was to retain the final
     listing representing the property for which he or she is responsible.
     The PMO, however, did not retain a copy of the final property listing for
     which the AO accepted responsibility. GAO's Standards for Internal
     Controls in the Federal Government require all transactions and other
     significant events to be clearly documented. In its April 1989 report,
     Arthur Andersen & Company also noted that OMS did not keep signed copies
     of property listings on file.


                                      6
2.   The PMD did not conduct the required annual inventory in 1990. Paragraph
     6a, ITC Directive 3550, requires the PMD and ADs to conduct separate
     annual physical inventories. Failure to do so allows errors in the
     property management database to go undetected. For example, in our
     review of the 1991 inventory process, we could not trace to the MPL the
     barcodes of 2 of 5 typewriters in storage. Inventory items should not
     normally be removed from the MPL until they leave lTC's control. Also,
     the barcode should only be removed at the time the status of the item is
     changed, such as a reduction in the threshold for controlling property
     items and when the item leaves ITC control.

     In addition, we could not trace to the MPL 3 of 8 pieces of Wang ADP
     equipment. GAO Title 2 requires that agency property records enable
     periodic independent verification of the accounting records' accuracy
     through periodic physical inspection. Failure to maintain records of
     property allows the opportunity for misappropriation. In a prior report,
     Arthur Andersen & Company also noted that property was on hand, but not
     reflected in the property records.

     The 1991 inventory process was initiated in February 1991 and was not
     complete as of our fieldwork completion--June 24, 1991. One storage
     location, which OMS management stated contains inactive property only,
     had not been inventoried; 7 of 35 AOs had not finalized their property
     listings; and the location of certain equipment had not been resolved.
     For the unlocated items, the record was changed to move the items from
     the AO list to one of two listings ("222" or "store") used for property
     for which the location is in question or property that is being held for
     disposal or reissue.

     As a result of this practice, which also existed during the 1989 invento-
     ry, ITC has not verified the existence of all its property, determined
     the accuracy of all its property management records, or fixed responsi-
     bility for all property. Because the ITC Form 110 process is not
     effective (as noted in the Findings section), and the inventory process
     has continued for over 4 months, property may have since been relocated,
     causing further inaccuracies to occur. ITC Directive 3550, Section 6a,
     requires the PMD and AOs to conduct separate annual inventories. It does
     not, however', establish a timeframe for completing them. Inefficient and
     inaccurate inventories may occur as a result of this protracted inve~tory
     process.

Property Transfer and Disposal Process

     The   objective of the property transfer and disposal process is to
identify   unused property and make it available to other authorized users, thus
avoiding   unneeded expenditures of Federal funds. Controls over the ITC
property   transfer and disposal process can be improved in the following areas:

1.   ITC does not identify and report excess property to GSA in a timely
     manner. For example:



                                         7
     •    An SF 126, Report of Personal Property for Sale, reporting
          excess equipment totaling $88,893 was submitted to the General
          Services Administration (GSA) in April 1991, even though it
          consisted mostly of Wang ADP equipment that had not been used
          for approximately 2 years.

     •    No report has been submitted to GSA to report as excess the
          contents of one entire storage location containing electronic
          office equipment (including additional Wang ADP equipment not
          used for approximately 2 years).

     Agencies should continuously survey property and promptly make excess
     property available for transfer (41 CFR 101-43.101 and 102(b». Failure
     to do so complicates lTC property management functions, increases storage
     requirements and costs, restricts the use of Government funds, and
     increases the likelihood of property being lost or misappropriated.

2.   Not all AOs follow established procedures for returning unneeded equip-
     ment. They do not always prepare an lTC Form 110 and often directly
     contact the contract movers to have property removed from their offices.
     Established procedures call for the AO to prepare an lTC Form 110 and
     notify the PMO. After the PMO inspects the equipment, the PMO should
     arrange for the property to be moved (paragraph 12, lTC Directive 3550).
     Without proper completion of the lTC Form 110 and notification of the
     PMO, the property records are not updated, the AO is not relieved of
     accountability, and the corresponding accountability is not transferred
     to the PMO or to another AD.

3.   For FYs 1989 and 1990, the PMO did not submit the SF 121, Annual Report
     of Utilization and Disposition of Excess and Surplus Personal Property,
     to GSA within the required timeframe. The Federal Property Management
     Regulation 141 CFR 101-43.470l(a)] requires submission of the SF 121
     within 60 days of the end of the fiscal year. The PMO submitted lTC's SF
     121 for FY 1989 two months late and, as of June 24, 1991, had not submit-
     ted the FY 1990 report, which was due November 29, 1990. When reports
     are not submitted on time, GSA does not have complete information on use
     and disposition of excess and surplus property.

4.   The PMO does not maintain proper records of property transfers and
     disposals external to ITC. PMO approval of excess property reports
     submitted to GSA was not evident nor was a record of property taken to a
     disposal facility always documented. We could not ~etermine that actions
     related to excess property were properly authorized nor could we deter-
     mine what property was taken to the disposal facility or by whom or when.
     GAO's Standards for Internal Controls in the Federal Government require
     all transactions to be clearly documented.

5.   The barcode is removed from excess property in the storage building at
     the time the report to GSA of excess property is made, rather than when
     the property is actually disposed of or transferred. Premature removal
     of the barcode leaves the property unidentified for periods of up to
     several months. This increases the possibility that the property will be

                                      8
     misappropriated, leaves the property without identification as U.S.
     Government property, and eliminates the barcode as an effective control
     technique. One of the key standards in GAO's Standards for Internal
     Controls in the Federal Government is that internal control techniques
     are to be effective and efficient in accomplishing their internal control
     objectives.

General Property Management

1.   Four of five AOs or alternates stated they had not received training in
     the responsibilities related to the AO position. The need for effective
     training in property management procedures for the AOs, their delegatees,
     and custodians appears to be a major cause for some of the problems noted
     in our review. GAO's Standards for Internal Controls in the Federal
     Government requires personnel to be given the necessary formal and on-
     the-job training to make them competent for the duties to which they are
     assigned.

2.   One OMS support services specialist has the responsibility for virtually
     the entire property transfer/disposal process. This specialist is a
     member of the team that conducts inventories, has physical control over
     the storage location, prepares and occasionally approves for ITC the
     turn-in paperwork submitted to GSA, removes the barcodes, and takes the
     property to the disposal facility.

     In Arthur Andersen & Company's 1989 report, it was also noted that the
     specialist was approving excess-property forms sent to GSA.

     Another specialist oversees the inventory process and can add or delete
     property or modify property records without additional authorization.
     Both of these conditions provide the opportunity for property to be
     misappropriated. GAO's Standards for Internal Controls in the Federal
     Government specifies that key duties and responsibilities in authorizing,
     processing, recording, and reviewing transactions should be separated
     among individuals.

3.   AOs or custodians are not maintaining required records of personal charge
     property. ITC Directive 3550, Section 4c(2), requires custodians to keep
     personal charge property records. Section 6b(2)(a) requires the AOs or
     custodians to forward these records to the PMO annually. Personal charge
     property is defined in the directive as including, but not limited to:
     computer software, hand-held calculators, tape recorders, briefcases,
     portable typewriters, and portable dictating equipment. Without main-
     taining records on personal charge property, control cannot be main-
     tained, and the property is susceptible to misappropriation.

4.   The Office of Finance and Budget's (OFB) written capitalization criteria
     requires all items of a group purchase exceeding $5,000 be capitalized.
     A strict following of this policy would cause an excessive number of
     items to be capitalized and accounted for in the property management
     system. A more appropriate policy would be to require capitalization of
     these items for large-quantity purchases only, where current costs in a

                                      9
     given period would be distorted if the costs were charged to expense.
     This interpretation is consistent with the provision of GAO's Title 2.
     OFB personnel stated that they agree with this interpretation and have
     been applying it in practice. OFB's written policy should be revised,
     however, to conform to GAO's Title 2 and to prevent the improper treat-
     ment of future property acquisitions.

5.   Based on our observations, designated ADs are at too high a level in the
     management structure to permit them to devote the needed time and
     attention to property management. ITC Directive 3550, Section 4a, states
     that office directors are responsible for serving as ADs or delegating
     their duties and authorities to others. Delegation of the duties and
     authorities for this activity to a lesser organizational level should
     allow for the appropriate level of attention necessary to have an
     effective property management system and still have the responsibility
     for the activity remain at the appropriate organization level.

6.   The location level at which the property management system tracks
     personal property is too specific. The location of property is reflected
     at the employee or desk location where it is used, rather than at the AO-
     location level. This necessitates the submission of an ITC Form 110 each
     time a piece of equipment is moved--even if it is within the same AD's
     area of control.

7.   The MPL contains many items for which we believe the inherent risk of
     loss, considering the size and nature of the items, is relatively low.
     ITC has established a $300 threshold for placing property items into its
     property management system. If the threshold were increased and specific
     categories were excluded (such as PC keyboards, file cabinets, desks, and
     partitions), a substantial reduction would occur in the number of items
     tracked, and the inventory would be more manageable. ITC established the
     $300 threshold after Arthur Andersen's April 1989 report, in which it was
     noted that lTC's property management system had too many small-dollar
     value items. We think the threshold could be further raised and certain
     types of assets could be otherwise designated as not requiring property
     management system control. (GAO's Title 2 capitalization criteria,
     however, must be considered if changes are made. Low risk items valued
     at $5,000 or more must still be accounted for in a manner that permits
     inclusion in the financial statements and provides for periodic indepen-
     dent physical inspection.)

8.   Non-ITC personnel (contract movers) have access to property storage areas
     without ITC personnel being present. On occasion, the contract movers
     are provided a key to the storage areas to deliver equipment from the ITC
     headquarters building to the storage facility. This procedure allows
     non-ITC personnel access to property for which they are neither account-
     able nor have custodial responsibility, and provides the opportunity for
     the property to be improperly removed or left unsecured. Our concern
     over this situation is increased because of the improvements required in
     the Form 110 process; the large amount of property for which the exact
     location is unknown and is reflected in the n222 n or nstore n listings;
     and the absence of an inventory for one storage location. GAO's Stan-

                                     10
     dards for Internal Controls in the Federal Government state that access
     to resources is to be limited to authorized individuals and that account-
     ability for the custody and use of resources is to be maintained.

CONCLUSIONS

     Our conclusions follow.

Inventory Process

     As a result of the number and types of weaknesses we observed (listed in
the Findings and Other Conditions sections), we cannot conclude that informa-
tion regarding all items in the property management system is appropriately
recorded and that all property is accounted for.

Property Transfer and Disposal Process

     The property transfer and disposal process appears adequate except for
the five weaknesses noted in the Other Conditions section. ITC has not
disposed of excess property in a timely manner; AOs do not follow established
procedures for turning in excess property; ITC has not complied with the
requirement to submit an SF 121 within 60 days of the end of each fiscal year;
proper records of disposals and transfers are not maintained; and barcodes are
prematurely removed from excess property.

General Property Management

     Certain internal controls must be strengthened to ensure proper control
and accountability over ITC property is established and maintained. During
our review, we noted no instances of missing property. We are not confident,
however, that lTC management can readily locate all property in its property
management system.

RECOMMENDATIONS REGARDING FINDINGS

     Our recommendations to strengthen lTC's internal controls related to the
Findings section are presented below. These recommendations parallel the
findings in Part 2.

Inventory Process

     The PMO should verify the existence and exact location of all property on
the MPL with locations shown as "222" or "store", update the MPL, and ensure
accountability is established. The PMO should ensure that AOs are knowledge-
able of lTC Form 110 requirements and should establish a schedule-for timely
entry of all Form 110 actions into the property management system.

Property Pass System

     The Chief, Operations Branch, should ensure that all personnel authorized
to sign property passes are aware of how to properly complete the pass and
that guards are following established procedures.

                                      11
COMMISSION COMMENTS

     The Office of Administration responded in writing to our recommendations
(see the appendix). It agreed with our recommendations and provided comments
on the actions taken and those that are planned. Because of the materiality
of the' weaknesses related to the inventory process, we reviewed with the
Director, OHS (who is also the PHD), the corrective actions enumerated in the
Office's response. We also verified and validated, on a sample basis, the
corrective actions taken.

Inventory Process

     Our efforts concentrated on the Office's response to our recommendation
that the PHO should verify the existence and exact location of all property on
the MPL with locations shown as "222" or "store". The Office stated that the
PHO has addressed the status or existence and exact location of all the above
described property and has personally conducted a reinventory. The Office
lists 17 "determinations" that the PHO made related to his efforts on the
above recommendation. The following represents our observations on certain of
these "determinations".

     •   The Office stated that all computer and laser printer locations
         have been verified. We selected five personal computers and
         five laser printers to determine their locations as a result of
         the PHO's verification. We could not locate two of the person-
         al computers and three of the laser printers. The PHO informed
         us that one of the personal computers may have been traded in,
         and he would look for the paperwork. We have not been provided
         this paperwork or been informed of the status of the personal
         computers or laser printers.

    •    The Office stated that all dot matrix printers are personal
         charge or supply items. Personal charge items are personal
         property loaned to a specific individual, who must be identi-
         fied, for the purpose of conducting official business. The PHD
         informed us that he verified the existence of a "substantial"
         number of the dot-matrix printers, but he could not define the
         number verified. For those he did not verify, he changed the
         location to DH (for dot-matrix printers) and assigned them to
         OIRM. The assignment to a DH account for the dot-matrix
         printers not identified results in the continuation of the same
         situation we observed in our review--property items not identi-
         fied with an AOwere assigned to either a "222" or "store"
         account, which do not represent actual physical locations.

    •    The Office stated that all WANG equipment locations have been
         verified. The PHO informed us that he only sampled the WANG
         equipment in the "222" and "store" accounts, and that he did
         not barcode or inventory all of the equipment because of
         manpower limitations.



                                     12
     •    The Office stated that all file cabinets and chairs have either
          been verified or deleted because they have a value under $300.
          The Office also stated that timeclocks, bookcases, credenzas,
          desks, printer stands, and tables in the "222" and "store"
          accounts had either been determined to be supply items or have
          values less than $300. The PHO informed us that if any item's
          cost was less than $300, he changed the location of the items
          from "222" or "store" to an account titled "less than $300."

          We agree that items with values less than $300 could be deleted from
          the property management system. However, our intent was that these
          items first be located before merely having their accountability
          changed to the "less than $300" account. Otherwise, they will
          simply be removed from all accountability by the PHO. This action
          appears to be inconsistent with the intent of the requirements of
          Section 7 of ITC Directive 3550, which requires the PHO to conduct a
          preliminary investigation to determine if missing property may have
          been stolen. If so, he is to notify the Board of Survey in writing,
          requesting. approval to delete it from the official property records.
          It is our opinion that based on the intent of the ITC directive, the
          PHO should inform the Board of Survey of the actions he plans to
          take to remove this property from the records and the circumstances
          justifying its removal.

     •    The Office stated that the old IBH Selectric typewriters'
          locations have been verified and were determined to be supply
          or personal charge items. The PHO informed us that he only
          checked a sample of typewriters and could not conclude that the
          item locations on the HPL are totally accurate.

     •   The Office stated that the PHO, with the assistance of IRM,
         declared keyboards, monitors, and modems as supply items. (The
         PHO informed us that by supply items he means expendable
         items.) The PHD changed the locations of these items from
         "222" or "store" to "modem," "keyboard," or "monitor" accounts.
         There is no indication that any attempt was made to inventory
         these items. While we agree with the concept of expendable
         items in certain situations, we are concerned about the advis-
         ability of writing-off items such as timeclocks and modems
         without any attempt to determine if these sensitive items have
         been misappropriated.

     In conclusion, even though the Office agreed with our recommendations
regarding the inventory process, and stated that an inventory has been
conducted and the status or existence and exact location of all "222" and
"store" property have been addressed, it appears that the existence of all
equipment in the "222" or "store" account was not fully verified. Our opinion
is based on the following:

    •    We sampled ten items from the PHO's inventory and could not
         locate five of the items.


                                      13
     •    The PMO informed us that he did not perform a complete
          inventory of the property items shown as being in location
          "222" or "store."

     •    Certain items in the "222" or "store" accounts were transferred
          to equally nondefinitive accounts without verifying the exis-
          tence and location of the items.

     •    The PMO plans to remove a considerable number of property
          items, such as bookcases, credenzas, desks, printer stands, and
          tables, from the records. It appears that this action should
          require approval at the Board of Survey level and compliance
          with the intent of ITC Directive 3550.

     If the Office's actions for correcting the inventory process weaknesses
do not completely address our recommendations, we will not be able to conclude
that the property records meet the requirements of Title 2 of GAO's PolIcy and
Procedures Hanual for GuIdance of Federal Agencies (Section P40.13).

RECOMMENDATIONS REGARDING OTHER CONDITIONS

     Our recommendations regarding the matters described in the Other Condi-
tions section are presented below. These recommendations parallel the Other
Conditions in Part 2.

InventoIY Process

1.   The PMO should retain a signed copy of the final property listing for
     which each AO acknowledges responsibility.

2.   The Director, OMS, should revise ITC Directive 3550 to require that a
     joint PMO/AO inventory be conducted annually. This would allow joint
     agreement on what property actually is in use by the AO and expedite
     finalizing AO property listings and property accountability.

     The PHO needs to reinitiate the inventory process and take other actions
     related to the property management system. The following steps should be
     taken in the order indicated:

     •   Dispose of all excess property and delete it from property re-
         cords.

     •   Resolve any items remaining on "store" and "222" property
         lists.

     •   Conduct a new physical inventory with a joint PMO/AO team and
         resolve all existing differences (complete within 30 to 60
         days). Consider using a new type of barcode and remove all
         existing barcodes.

     •   Review criteria for placing property in the property management
         system and update ITC directives to reflect decisions reached.

                                     14
     •    Delete from the MPL all property not meeting revised criteria.

     •    Prepare a list of property for which each AO is responsible
          based on the inventory and any new criteria.

     •    Have each AO sign the applicable property list.   The PMO and AO
          should retain a copy of this listing.

Property Transfer and Disposal Process

1.   The PMO should take aggressive action to identify, report, and dispose of
     all excess property_

2.   The PMO should establish controls over contract movers to ensure no
     property is moved without PMO concurrence. The AOs should comply with
     this requirement.

3.   The PMO should expeditiously complete and submit the FY 1990 SF 121 and
     establish written procedures to ensure timely completi~n of future
     reports.

4.   Written procedures for property transfers and disposals external to ITC
     should be prepared. They should cover assignment of responsibility for
     approving GSA excess property reports and document the requirements for
     property taken to the disposal facility.

5.   Written procedures should be established for disposal of ITC property.
     These procedures should state that barcodes are not to be removed until
     the property is in the final stage of leaving ITC control.

General Property Management

1.   The PMO should provide a property management training program for all
     AOs, alternates, and custodians. This training should be designed to
     cover all facets of property management with emphasis on the responsibil-
     ity that is inherent in these positions. This training should coincide
     with the actio~ taken on recommendation No. 2 under Inventory Process in
     the Other Conditions section of this report.

2.   Prior approval of the PMO or alternate should be obtained for all docu-
     ments submitted to GSA to report excess property and for all property
     items deleted from the property management system.

3.   The PMO should reevaluate the requirement for records on personal charge
     property and, if records are determined to be required, provide more
     detail to AOs on the type of records to be maintained.

4.   The Director, OFB, should revise the written capitalization policy to
     ensure it is consistent with GAO's Title 2.




                                      15
5.   The Director, Office of Administration, should encourage AOs at top
     management levels to consider delegating their duties and authority for
     property management to a staff member at a lower level, as appropriate,
     to ensure that adequate time and attention are devoted to property
     management. With this delegation, responsibility for this activity
     would still remain at the appropriate management level.

6.   The OMS property management system should track property only to the AO
     level, not the room- or individual user-level. Individual AOs should be
     responsible for knowing the exact location of property under their
     custody.

7.   The PMO should review the types of property and the current $300 thresh-
     old for listing property in the property management system to determine
     if the current policies provide for the efficient accounting and control
     of property having a low risk of loss. Consideration should be given to
     raising the current dollar threshold and exempting from property control
     certain low risk property items.

8.   The PMO should ensure that non-ITC personnel are not allowed unescorted
     access to property storage areas.

COMMISSION COMMENTS

     The Office of Administration responded in writing to our recommendations
(see the appendix). It agreed completely with all but two recommendations,
with which it only partially agreed (Property Transfer and Disposal Process
Recommendation No.2, and General Property Management Recommendation No.8).

Property Transfer and Disposal Process

     Regarding Recommendation No.2, the Office stated that PHO concurrence is
not required when contract movers relocate property within an AO's area of
responsibility; PMO concurrence is required only when property passes between
AOs or from the PMO and an AO. The Office is in the process of formalizing
this action; its target date is February 28, 1992. We concur with the
Office's statement.

General Property Management

     Regarding Recommendation No.8, the Office stated that its contract
service employees of DYnamic Concepts, Inc., are bonded and cleared for
security purposes, which qualifies them for unescorted access to property
storage areas. As bonded workers, their unescorted access to property storage
areas is appropriate. The Office further stated that all othernon-ITC
personnel will not be allowed unescorted access. We concur with this action
and consider this recommendation resolved.

     The Office has initiated improvements in its property management policies
and procedures based on our recommendations. When fully implemented, these
actions should result in an improved property management program.


                                      16
                                                                 Appendix


                                                      AD-O-666




UNITED STATESINT~RNATIONAL TRADE COMMISSION

                       V.'.\SHI:\GTON. DC 20436




October 16, 1991


MEHORANDUM:


TO:           Inspector General                   (   ~

PROH:         Director, Office of   Administr.~~~~
SUBJECT:      Draft Report, "Audit of Property Management"

As requested by your memorandum dated August 2, 1991
(IG-O-077), submitted herewith is the Office of Administration's
response to the subject draft audit report issued August 1991. In
accordance with Section 11 of the USITC Directive 1701, the
Commissioners have had an opportunity to comment on the response and
the Acting Chairman has approved it (see attached memorandum). In her
October 15, 1991, approval the Acting Chairman references a revision
of 10/9/91. This refers to the first paragraph on page 7 in which we
clarified our reasons for partially agreeing with the recommendation.
The attachment to this memorandum contains the version of page 7 the
Acting Chairman approved.

The Office of Administration for the most part agrees with the audit
recommendations. The attached response includes the actions to be
taken and the target completion dates ..

Please call me at 205-3131 or Bill Stuchbery at 205-3135 if you have
any questions.


Attachments

cc:     Director, Office of Finance and Budget
        Director, Office of Management Services
        Director, Office of Information Resources Management
                                                        AJ)-O-fi05




UNITED STATES INTERNATIONAL TRADE COMMISSION

                     WASHINGTON, DC 20436




 8ep~eaber    1', 1"1




 m:          Acting Chairman Brunsdale            J
 I'ROII:     Director, Office of   Administrati~~~~
             Approval of Administration's Comments of the Inspector
              General's Draft Audit Report: "Audit of Property
             !lanagement"


 On August 2, 1991, the Inspector General submitted copies of the
 subject audit to each Commissioner by lIemorandq (IG-O-076). The
 IG also requested Administration to review the draft a~dit report
 and make cOlllllents i f necessary. In accordance with Section 11 of
 USITC Directive .1701, "Audit Policies and Procedures", the Office
 of Administration has sent its comments in draft to the
 Commissioners, other than you as Acting Chairman, for review.
 Commissioners IDhr, Lodwick and Newquist did not have any comments
 at this t1lle. Confirmation vas made with their staff assistants.

The contract auditors found two conditions in the system of
control over property management that they considered to be
material vaakDesses. However, the Inspector General does not
believe the conditions constitute a material weakness as defined by
the lederal JlaDagers' Financial Integrity Act. During the
auelitors' review they found no instances of IIlissing property, but
observed that certain internal controls muat be strengthened to
ensure proper control and accountability over property. For the
most pare the Office of Administration agrees with the Inspector
General's recOlllllendations.
                                   -2-



In accordance with Section 11 of USITC Directive ~170l, submitted
herewith are Administration's comments and corrective action plan
for your approval before they are sent to the Inspector General and
a copy of the draft audit report. Since the IG has set a deadline
of october 2, 1991, for receiving a final response, it would be
appreciated if you could indicate your approval, or modification,
by the close of business Friday, septtmber 27, 1991.



Approved:   (       as
Hodify-aa. follows :_ _~                                        _

4"eg~
      Acting Chairman


Attacaents

co:    Director,   Office of Management Services
       Director,   Office of Finance and Budget
       Director,   Office of Information Resources Management
       Inspector   General w/o attachment
                                                                     1

            OFFICE OF ADMINISTRATION'S RESPONSE TO THE AUDIT
                         OF PROPERTY MANAGEMENT


                            INVENTORY PROCESS

RECOMMENDATION:

1.    (a) The PrQpertY Management Officer (PHQ) shQuld verify the
      existence and exact lQcatiQn Qf all prQperty Qn the Master
      PrQpertY Listing (NPL) with lQcatiQns shQwn as "222" Qr
      "stQre" ,

RESPONSE:    ill'': WITH COMMENT
The PrQperty Management Officer (PHO) has addressed the status Qr
existence and exact lQcatiQn Qf all the abQve described prQperty.
The PHO has made the fQllQwing determinatiQns:

      all cQmputer lQcatiQns have been verified.

      all laser printer lQcatiQns have been verified.

      all laptQps are persQnal charge items under the cQntrQl Qf
      OIRK. They will be added tQ the MPL when recQnstituted.

      all dot matrix printers are persQnal charge Qr supply items.

      all ADP MiscellaneQus are grQuped fixed assets (items like
      tQken ring cards with nQ identity).

      all YANG equipment lQcatiQns have been verified.

     all file cabinets have been verified by lQcatiQn Qr as have
     been drQpped value under $300 based Qn a previQus PMO
     decision.

     all chairs have been verified by the PMO in grQupings by AOs
     Qr by lQcatiQn (e.g., hearing rQQms) Qr have been drQpped
     value under $300 based Qn a previQus PMO decisiQn.

     the existence Qf surplus partitiQns have been verified by
     the"PHO and grQuped awaiting remQval when the KPL is
     reinitiated later based on their value and lack Qf identity.

     all systems furniture wQrkstatiQns Qn the KPL have been
     determined tQ be duplicate barcode numbers caused by each
     individual statiQn element ~aving been previQusly barcQded.
     The PMO had previQusly made a decisiQn tQ go tQ workstation
     rather than piece CQunt, This finalizes that transitiQn.
                                                                       2

      the PHO has previously determined that Timeclocks as a class
      should be treated as a supply item. This finalizes that
      decision.

      old IBM Selectric typewriters have been verified and
      determined to be supply or personal charge items.

      all bookcases should have been removed from the MPL as
      having a value under $300.

      all credenzas and desks transferred to this location were
      determined by ebe PHO to have been duplicate entries or were
      to be removed based on a value under $300.

      all printer stands and tables were previously determined by
      the PHO to be valued under $300. This finalizes that
      decision.

      the PHO had previously determined that all telephone
      instruments on this list are aged and incompatible machines
      with no value and were to be removed. This finalizes that
      decision.
      all keyboards, monitors and modems were jointly declared
      supply items by the PMO and the Office of Information
      Resources ~agement (IRH).
The PoKO has worked with and analyzed the R222 R and STORER lists to
make or finalize the above described determinations. The PMO also
personally conducted a reinventory to correct the problems caused
by continually moving items .and to verify previous decis ions
reflected above. New lists will be transmitted to AOs for
accountability.

TAR.GET COHPLETIOR DATE:      November 15, 1991


UCOHHENDATIOR:

      (b) update the   MPL.
USPORSE:    AGUE
As described above, the PHO has recertified all items previously on
the MPL and made transfers to the appropriate Accountable Officer
(AO) from R222 R and Rstore R.

TAltGET COHPLETION DATE;      November 15, 1991
                                                                     3


RECOHHENDATION:

      (c) and ensure that accountabi1icy is established.

RESPONSE:   AGREE

Each AO will receive a copy of the revised listing generated above
to be confirmed with a signed copy returned to the PMO for his
files.

TARGErCOHPLETION DATE:     November 15, 1991


RECOMHENDATION:

      (d)   The fMO should ensure that AOs are knowledgeable of
            lIC 110 form requirements- and should establish a
            schedule for timely entry of all fOrm 110 actions into
            the property management system.

RESPONSE:   AGUE

This issue is addressed as part of several specific
recommendations.

TAaGEr COMPLETION DATE:    February 28, 1992


                          PllOPERTY PASS SYSTEK


RECOHHDDATION:


2.    The Chief, Operations Branch (ASD/OPS) should ensure that
      all personnel authorized to sign propercy passes are aware
      of how to properly complete the pass and that suards are
      following established procedures.

RESPONSE:   roD
The Director of OMS has directed the Chief, ASD/OPS to prepare an
instruction sheet for the use of the guards and all office
directors. That sheet will be used to generate a briefing for all
authorized property pass signatories. The PHO will counsel with
the individual identified by the auditors who has a large volume of
property pass activity.

TARGET COMPLETION DATE:    January 8, 1992
                                                                         4




                AUDIT UCOHHENDATIONS REGAllDING OTBEll CONDITIONS:


                                INVENTORY PROCESS:


RECOHHENDATION:
1.        The fMO should retain a signed copy of the final property
          listing for which each AO acknowledles responsibility,

RESPONSE: .      AGUE

Rewrit~en directives and procedures will reflect this as a
requirement.

TAllOET COllPLETIOH DATE:        December 17, 1991


UCOHHENDATIOR:
2.        The pirector, OMS. should revise IIC Directive 3550 to
          require that a joint EMOtAO inventory be conducted annually,
          Ibis would allow 'oint alreeJDent on what property actyally
          is in use by the AC and expedite finalizing AO property
          listings and property accountability.

USPORSE:         ABD
TAllOET COHPIZlIOll DATE:       February 28   I   1992

          The EKC needs to relnitiate the inventory process and take
          other actions related to the property manalement system,
          the fgl10winl steps should be taken in the order indicated:

     a.   Dispo" of all excess property and delete it from property
          r,cordl.

RESPONSE:        AGUE

Materials' were declared excess to GSA in FINDINGS: INVENTORY
PROCESS: item la. and deleted from the HPL. The PKO has segregaeed
the excess proper~ and will maintain separate controls over excess
property until GSA is able to authorize disposal.

~ET        COHPLETIOH DATE:    November" 15. 1991

 b.       Resolye any items remaining on "store" and "222- property
          lists.
                                                                      5


RESPONSE:    AGREE

See INVENTORY PROCESS: item la for a description of the resolution
process.
TARGET COHPLETION DATE:     November 15, 1991


  c.   Conduct a new physical inventory with a joint PMO/AO team
       and resolve all existins differences (complete within 30 to
       60 days).

RESPONSp;:   AGREE   (BASED ON ABOVE COMMENTS)

New lists will be issued based on the PHO's corrections made to the
"222" and "STORE" lists discussed in INVENTORY PROCESS: item 1, et
a1.

TAllGET COHPLETION DATE:    November 15, 1991


  d.   COnsider using a new type of barcode and remove all existing
       barcodes.

llESPONSE:   AGREE
       The PHO will evaluate the extent of the problem and consider
       using a new type of barcode.

TAllGET COJIlLETION DATE:   February 28, 1992


  e.   Review criteria for placing properhY in the property
       management system and update ITC Directives to reflect
       decisioDl reached.

RESPONSE:    AliBP
The PKO will appoint a team composed of the Directors of
Administration, Finance and Budget, Information Resources
Management to assist him with a review of the type, value and
relative .levels'of risks to property held by the Commission.
Through this process, new property inclusion criteria will be
developed. With the Director of Administration's formal approval,
the PHO will make appropriate changes to implement those decisions.

TARGET COHPLETION DATE:     February 28, 1992


  f.   Delete from the MfL all property not meeting revised
       criteria~-
                                                                            6


USPONSE:         AGREE

The PHO will either closely supervise or will personally undertake
the deletions from MPL.

TAllGETCOHPLETION DATE:           January 8. 1992


     g.   Prepare a list of property for which each hQ is responsible
          based on the inveneoty and aDy new criteria.

RESPONSE:        M'U.
After the new criteria have been selected and the HPL modified,
each AO will be provided with ewo copies of the updated listing.

TAllGET COHPLETIOR DATE:          February 6. 1992


     h.   Have the hQ sim the applicable property listing.        The PMO
          and hQ should retain a copy of this listinc.

RESPONSE:        AGIlE

The rewritten Directives and procedures will reflect this as a
requirement.

TARGET COMPLETION DATE:           February 28, 1992


PllOPEllft' Tl.dSRI. AID DISPOSAL PIlOeESS:


IECOlDl!BDATIOB:
1.        thelMa    should take 'caressive action to identify. report.
          And   dispose of all excess'property.

IESPOBSI:       '9'11
The PKO ~ a        's~aff   person assigned to this and we will remain
aggressive.

TAllGET COHPLETIOR DATE:          Ongoing.


IECOHHDDATIOR:

2.        The eKe should establish controls over contract movers to
          ensur' no proRerty Is moved without FHO cODcu.rrem;-e--=---uT[e
          hOI -jhO\lld -comply   with this requirement.
.'

                                                                          7

     RESPONSE:'   PARTIALLY AGREE

     The PMO concurs with this recommendation as it relates to property
     passing between AOs or from the PMO and an AO. However, the PMO
     does not have to concur with an AO's requirement to have property
     assigned to him or her which needs to be relocated by contract
     movers as long as the property remains with the same AO. This is
     consistent with recommendation number 6 under section "General
     Property Management" which recommends that the OMS property
     management system track property only to the AO, not the room or
     individual user level.


     TARGET COMPLETION DATE:    February 28, 1992

     RECOMMENDATION:

     3.    The PMO should expeditiously complete and submit the FY 1990
           SF 121 and establish written procedures to ensure timely
           completion of future reports.


     RESPONSE:    AGREE

     TARGET COMPLETION DATE:    December 30, 1991


     RECOMMENDATION:

     4.    Written procedures for property transfers and disposal
           external to ITC should be prepared. They should cover
           assignment of responsibility for approving GSA excess
           property reports and document the requirements for property
           taken to the disposal facility.

     RESPONSE:    AGREE

     TARGET COMPLETION DATE:    December 30, 1991


     RECOMMENDATION:

     5.    Written urocedures should be established for disposal of ITC
           property. These procedures should state that barcodes are
           not to be removed until the property is in the final stage
           of leaving ITC control,


     RESPONSE:    AGREE

     TARGET COMPLETION DATE:    December 30, 1991
                                                                     8


GDDAL Pl.OrEllTY HANAGEHENT:


llECOHKDDATIOH:

1.    the fMO should provide a property m'DAgement training
      pr0U-am for all AOs, altemates, and custodians, This
      prograg should be designed to cover all facets of property
      p'U'gepent with emphasis on the responsibility'that is
      inherent in these positions. this training should coincide
      with the action taken on recompendation No. 2 UDder
      Inyen;ory Process in the Other Condi;ioDS s.c;ion of this
      repgr;.

BSlORSE:     A9BU

This requireaent will be accomplished in concert wi tb item 2, OTHER
CONDITIONS: INVENTORY PROCESS.
TAl.CET COJIPLETION DATE:   February 28, 1992


llECOMJmmATIOR:
2.    Prigr approval of the fMO or altema;e shguld be obtained
      fgr all documen;s submitted to GSA to report excess property
      and for all proper;y items deleted from the property
      p'DAgegeD; sys;em.

IESlONSE:    Aen
TAllGET COHPLftIOR DATE:    February 28. 1992


llECOMJmmA.TIOR:
3.    The fMO should reevalUate the requiregeD;s fgr records on
      persgnal charge prgperty and. if records are determined to
      be required. prgyide more detail ;0 APs on the me of
      r.cgrda to be maintained.
                   ;

IESPORSE:,   Aen'
The PMO will b. assisted by the executive group described in OTHER
CONDITIONS: INVENTORY PROCESS: item 2d. in his evaluation of this
issue. The PlIO will execute the decision.

TAllGET COJIPLETIOR DATE:   December' 30, 1991
                                                                       9


UCOJDIDDATIOR:


4.      The Director. OrB, should revise the written capitalization
        policy to ensure it is consistent with GAO's Title 2,

USPORSE:       ABU
The Director. OF.B will issue a memorandum to the appropriate
managers in Administration to clarify the internal policy and
ensure that fixed assets will be valued consistent with the policy
established in Title II of the General Accounting Office GAO)
·Policy and Procedures Manual for Guidance of Federal Agencies·,

TAIlGIT COJIPLITIORDATE:       September 30. 1991


UCOMKEIIDATIOR:


5.      The Director. Qffice of Administration shOUld encourale AOs
        at top manalcment leyels to cOnsider delelatinl their duties
        and authoritY for propertY management to a staff member at a
        lower level. IS appropriate, to ensure that adequate time
        and attention are devoted to propertY ..nale.ent. Yith this
        4olelatign. responsibilitY for this actiyity would still
        r",tD at dbe appropriate management level.

llESPORSE:    WR
TA1LCIT COJIPLITIOR DATE:      February 28. 1992


I.ICOJOl'EllDA'fIOR:


6.      The OMS prqpertY aanal'ment system should track property
        only to the AQ level. not the room- or individual user-
        level. Individual AOs should be responsible for knowins the
        exact location of property under their custody .
                       •   I


llESP01ISE:   'AGBR .
The Directives will b. changed to reflect this.

'1'AllCIT COJIPL!TIOR DAft:    February 28. 1992



IlECOJOlERDATIOR:
                                                                  10

7.     The PKO should review the types of property and the current
       S300 tbresholdfor listtnl property in the property
       ,'DAlement system to determine if the current policies
       provide for efficient accounting and control of property
       hayinl a lOW risk of loss. Consideration should be liven to
       raising the current dollar threshold and exempting from
       property Control certain low risk property items.

RESPONSE:    ACUI

The PHD in coordination with the Directors of Finance and
Information Resources Kanagement will be forwarding to the Director
of Administration his recommendations for the changes.

TAJ.CET C01IPLETIOR DATE:      February 28, 1992


IICOlIIIDDATIOR:

8.     The EKO should ensure that non-IIC perSOnnel are not allowed
       uoesc0rted access to property storale areas.
USPOBSE:     PAlVAU.y AGlg

The Contract services employees of Dynamic Concepts, Inc. (DCI) are
bonded and cleared for security purposes. They are qualified for
unescorted access. However, all other non- IIC personnel will not
be allowed unescorted access.

TAllGI'1' COJIPLE'lIOR DAft:   Complete
